          Office of Inspector General




September 28, 2006

ELLIS BURGOYNE
ACTING VICE PRESIDENT, SOUTHWEST AREA OPERATIONS

SUBJECT: Audit Report – Mail Transport Equipment Service Center Network –
         Highway Transportation Routes – Dallas
         (Report Number NL-AR-06-012)

This is one in a series of reports that presents results from our self-initiated nationwide
audit of the mail transport equipment service center (MTESC) network (Project Number
06XG023NL002).

The objectives of our audit were to determine whether audit recommendations from our
report, Mail Transport Equipment Service Center Decision Analysis Report,
Performance and Financial Benefit (Report Number TR-AR-01-003, dated
May 4, 2001), were implemented, and whether the U.S. Postal Service had additional
opportunities to save money. The May 4, 2001, report, initiated in response to a Board
of Governors request, concluded the network would not achieve the financial benefits
anticipated by the 1997 Decision Analysis Report. We recommended, in part, that
management reduce costs by analyzing transportation requirements and other costs
associated with the network.

This follow-up report focuses on whether the Postal Service had opportunities to save
money by reducing the number of highway round trips originating at the Dallas MTESC.
The Dallas MTESC provides service to mail processing facilities in the Postal Service’s
Southwest Area.

We concluded the Postal Service could save approximately $1,476,981 over the term of
the existing contract by canceling, not renewing, or modifying 66 round trips originating
at the Dallas MTESC. The Postal Service could eliminate the trips without affecting
customer service by consolidating loads to more fully use trailer capacity. This amount
represents funds put to better use and will be reported as such in our Semiannual
Report to Congress. We recommended the Acting Vice President, Southwest Area
Operations, verify the actual cancellation, modification, or substitution of the trips
identified for reduction during our audit.

Management agreed with our findings and recommendations. They stated all trip
reductions would be completed no later than January 13, 2007. Management stipulated
that their anticipated savings might be slightly decreased based on the actual effective
date of the reductions. They said they would provide us with a final accounting of the
reductions when they completed the contract actions.

Management’s comments are responsive to our findings and recommendations. We
consider management’s actions, taken or planned, sufficient to address the
recommendations we made in our report. We will address any decrease in anticipated
savings during our routine audit procedure for closing significant recommendations.
Management’s comments and our evaluation of these comments are included in the
report.

The U.S. Postal Service Office of Inspector General (OIG) considers all the
recommendations significant, and therefore requires OIG concurrence before closure.
Consequently, the OIG requests written confirmation when corrective actions are
completed. These recommendations should not be closed in the follow-up tracking
system until the OIG provides written confirmation the recommendations can be closed.

We appreciate the cooperation and courtesies provided by your staff during the audit. If
you have any questions or need additional information, please contact Joe Oliva,
Director, Transportation, or me at (703) 248-2300.


 E-Signed by Colleen McAntee
ERIFY authenticity with ApproveI



Colleen A. McAntee
Deputy Assistant Inspector General
 for Core Operations

Attachments

cc: Patrick R. Donahoe
    William P. Galligan
    Anthony M. Pajunas
    Don M. Spatola
    Beverly A. Van Soest
    Stephen F. Johnsen
    Steven R. Phelps
Mail Transport Equipment Service Center Network –                              NL-AR-06-012
 Highway Transportation Routes – Dallas


                                       INTRODUCTION
 Background                      The mail transport equipment service center (MTESC)
                                 network is a system of 22 contractor-operated service
                                 centers that supplies mailbags, carts, hampers, and other
                                 mail transport equipment (MTE) to mail processing facilities
                                 nationwide. The service centers deliver equipment to users
                                 with dedicated transportation.



   The MTESC Network has
          dedicated
       transportation.

     Our 2001 audit report
     identified $1 billion in
         potential MTE
      transportation cost
            overruns.

  This MTE tractor-trailer was
 photographed in June 2006 at
      the Dallas MTESC.




                                 The original plan to create the network was presented to
                                 the U.S. Postal Service Board of Governors (BOG) in the
                                 Decision Analysis Report (DAR), Mail Transport Equipment
                                 Service Center Network (dated May 13, 1997). The DAR
                                 forecasted costs exceeding $3.6 billion over 10 years, and
                                 the BOG approved it in June 1997. The new network
                                 became fully operational in January 2000. From the outset,
                                 there were allegations of poor performance and excessive
                                 costs associated with the new network. As a result, the
                                 BOG asked the U.S. Postal Service Office of Inspector
                                 General (OIG) to evaluate the program.

                                 Our audit report, Mail Transport Equipment Service Center
                                 Decision Analysis Report, Performance and Financial
                                 Benefit (Report Number TR-AR-01-003, dated May 4,
                                 2001), concluded the network would not achieve the
                                 financial benefits anticipated by the DAR. We
                                 recommended in part that management reduce costs
                                 by analyzing transportation requirements and other costs
                                 associated with the network.



                                                    1
Mail Transport Equipment Service Center Network –                             NL-AR-06-012
 Highway Transportation Routes – Dallas


 Objective, Scope, and         This audit is a follow-up to our May 4, 2001, report. Our
 Methodology                   objectives were to determine whether management
                               implemented our recommendations and whether the Postal
                               Service had additional opportunities to save money. This
                               report focuses on transportation requirements of the Dallas
                               MTESC. The Dallas MTESC provides service to mail
                               processing facilities in the Postal Service’s Southwest Area.

                               Using computer-generated data from the Postal Service,
                               we determined trip dispatch, arrival, and load efficiency,
                               and we identified potential trips for consolidation or
                               elimination. We did not audit or comprehensively validate
                               the data; however, several weaknesses in data quality
                               constrained our work. For example, some computer files
                               had missing records and inaccurate trailer load volumes.
                               Despite these constraints, we were able to support our
                               audit conclusions by applying alternate audit procedures,
                               including examination of source documents, observation,
                               physical inspection, and discussions with officials.

                               During our work, we interviewed Postal Service
                               Headquarters officials in Network Operations Management
                               and managers and employees in the Southwest Area and
                               at the Dallas MTESC. We reviewed relevant Postal Service
                               policies, procedures, and directives; observed and
                               photographed operations; and consulted with
                               subject-matter experts. We performed our work in close
                               coordination with the Network Operations Management
                               transportation assessment team and area personnel,
                               discussed our observations and conclusions with various
                               management officials, and included their comments where
                               appropriate.

                               We conducted work on this report from June through
                               September 2006 in accordance with generally accepted
                               government auditing standards and included such tests of
                               internal controls as we considered necessary under the
                               circumstances.

 Prior Audit Coverage          Since March 2005, the OIG has worked with the Postal
                               Service to reduce MTESC costs. As a result, we have
                               issued seven audit reports that identified potential savings
                               exceeding $14.4 million. For more detailed information
                               about these audits, see Appendix A.



                                                    2
Mail Transport Equipment Service Center Network –                               NL-AR-06-012
 Highway Transportation Routes – Dallas


                                       AUDIT RESULTS
 Highway Contract              Postal Service Headquarters implemented our
 Management                    recommendations and is aggressively pursuing
                               opportunities to reduce MTESC network costs. (See
                               Appendices B, C, and D.) Network Operations
                               Management transportation assessment teams,
                               supplemented by area personnel, are continuing to analyze
                               network transportation costs in order to reduce operating
                               expense and improve efficiency.




   The MTESC network is a
   system of 22 contractor-
   operated service centers
   that supplies equipment
      to mail processing
     facilities nationwide.

   Photograph taken at the
  Dallas MTESC, June 2006.




                               Although Network Operations Management officials
                               continually strive to optimize transportation with aggressive
                               cost-cutting efforts such as their MTESC network cost and
                               efficiency assessments, transportation requirements
                               constantly change. Based on our examination of scheduled
                               shipments and our physical examination of trailer use, we
                               believe additional potential for trip cancellations and savings
                               exists, without jeopardizing service or operational flexibility.
                               Specifically, we believe the Postal Service could save
                               approximately $1,476,981 over the term of existing Dallas
                               MTESC highway contract 751AK by canceling, not
                               renewing, or modifying 66 unnecessary round trips.

                               Postal Service policy requires transportation managers to
                               balance service and cost. The Postal Service could
                               eliminate the 66 trips without affecting service because they
                               could optimize some trailer loads by consolidating
                               equipment on other trips.




                                                    3
Mail Transport Equipment Service Center Network –                                    NL-AR-06-012
 Highway Transportation Routes – Dallas


 Cooperative Effort            As a result of our continuing efforts to partner with and bring
                               value to the Postal Service, we communicated frequently
                               with area officials during our audit and gave the officials a
                               list of our trip proposals. We then discussed our proposals




       The interior of an
      underutilized trailer
     arriving at the Dallas
            MTESC,
           June 2006.




                               and area operational needs with officials and made
                               appropriate adjustments. As a result of this cooperation,
                               area officials agreed to eliminate the 66 trips outlined in
                               Appendices E and F. The table below summarizes our trip
                               cancellation proposals:

                                                    PROPOSED TRIP ELIMINATIONS
                                                     BY ELIMINATION CATEGORY

                                                               Number
                                    Elimination Category       of Trips   Appendix     Savings

                                 Trip cancellations or
                                 modifications identified by
                                                                  3          E           $139,118
                                 Postal Service during the
                                 audit.

                                 Proposed trip
                                 eliminations/substitutions
                                                                 63          F           1,337,863
                                 with which area officials
                                 agreed.

                                 Total                           66                     $1,476,981

                                                               Figure 1




                                                    4
Mail Transport Equipment Service Center Network –                              NL-AR-06-012
 Highway Transportation Routes – Dallas


 Recommendations               We recommend the Acting Vice President, Southwest Area
                               Operations:

                                   1. Verify the actual cancellation, modification, or
                                      substitution of the three trips management identified
                                      during our audit.

                                   2. Verify the actual cancellation, modification, or
                                      substitution of the 63 trips with which Postal Service
                                      managers agreed and provide the date action was
                                      taken.

 Management’s                  Management agreed with our findings and
 Comments                      recommendations. They stated all trip reductions would be
                               completed no later than January 13, 2007. Management
                               stipulated that their anticipated savings might be slightly
                               decreased based on the actual effective date of the
                               reductions. They said they would provide us with a final
                               accounting of the reductions when they completed the
                               contract actions. Management’s comments, in their entirety,
                               are included in Appendix G.

 Evaluation of                 Management’s comments are responsive to our findings
 Management’s                  and recommendations. We consider management’s
 Comments                      actions, taken or planned, sufficient to address the
                               recommendations we made in our report. We will address
                               any decrease in anticipated savings during our routine audit
                               procedure for closing significant recommendations.




                                                    5
Mail Transport Equipment Service Center Network –                                                                              NL-AR-06-012
 Highway Transportation Routes – Dallas




                                                      APPENDIX A. PRIOR AUDIT COVERAGE

                                                                                                              Additional
                                                         Number of                                              Trips
                                                       Trips Identified                                      Management
                                             Date             for                                  Trips      Identified       Trips        Trips
                                             Final       Elimination                              Agreed          for       Management   With Which
         Report                Report       Report            or          Potential Savings        to by     Elimination     Agreed to   Management
         Name                  Number       Issued      Modification          Identified        Management   During Audit     Assess      Disagreed

   MTESC Network –
  Equipment Processing       NL-AR-05-006   3/31/05                                $9,213,576

    MTESC Network –
  Highway Transportation
         Routes
   New York Metro Area       NL-AR-05-014   9/28/05          49                     1,025,812       17                          32

    MTESC Network –
  Highway Transportation
         Routes
      San Francisco          NL-AR-06-003   3/23/06          77                     1,092,640       31           21                           25

    MTESC Network –
  Highway Transportation
         Routes
        Memphis              NL-AR-06-005   3/28/06          25                      699,397                                    25

MTESC – Proposed Change
 to Quality Inspection and
  Payment Authorization
          Controls           NL-AR-06-007   7/20/06

    MTESC Network –
  Highway Transportation
         Routes
         Atlanta             NL-AR-06-009   8/18/06          90                      801,097        90

    MTESC Network –
  Highway Transportation
         Routes
       Greensboro            NL-AR-06-010   9/18/06          73                     1,607,510       62                          11


         Totals                                             314                 $14,440,032        200           21            68             25



                                                                            6
Mail Transport Equipment Service Center Network –       NL-AR-06-012
 Highway Transportation Routes – Dallas




          APPENDIX B. OVER-THE-ROAD CONTAINER POLICY LETTER




                                                    7
Mail Transport Equipment Service Center Network –       NL-AR-06-012
 Highway Transportation Routes – Dallas


         APPENDIX C. REEMPHASIS OF OVER-THE-ROAD CONTAINER
                           POLICY LETTER




                                                    8
Mail Transport Equipment Service Center Network –                                         NL-AR-06-012
 Highway Transportation Routes – Dallas


         APPENDIX D. MEMORANDUM TO AREAS ABOUT PROPER USE,
        STORAGE, AND DISTRIBUTION OF MAIL TRANSPORT EQUIPMENT
June 11, 2002

VICE PRESIDENTS, AREA OPERATIONS
MANAGER, CAPITAL METRO OPERATIONS

SUBJECT: Mail Transport Equipment

The Postal Service created the Mail Transport Equipment Service Center (MTESC) Network to process, repair,
store, and distribute mail transport equipment (MTE) in a timely and efficient manner. Before this innovative,
equipment-management program was established, customers and employees would regularly complain about the
adequacy of the supply and the poor condition of this equipment.

Now that we have realized benefits from the establishment of this network, we must work diligently to ensure we
maximize the efficiencies and ultimately improve the bottom-line of the Postal Service.

There is a need to focus on what gets sent to the MTESCs and, in particular, when and how equipment should be
returned. There are instances when equipment is being returned by a plant followed shortly after by an order for
the same types of equipment. Shipping equipment to the MTESC should not be done solely to free up space at
the plant. Part of the planning process should include setting aside some equipment for fulfilling in-house needs
as well as customer needs.

To that end, it is imperative that postal managers at processing and distribution centers returning empty
equipment for consolidation, repair, and storage follow appropriate operating procedures. These procedures
include:

    •    ensuring that adequate stock of equipment is retained on site before dispatching any excess MTE;
    •    ensuring that trailers returning equipment to the MTESCs are fully loaded, including the cube space of
         rolling stock;
    •    ensuring that all equipment is free of trash including labels on trays, tubs, and sacks;
    •    and most importantly, ensuring that there is no mail in any piece of equipment.

By taking steps to maximize cube space in trailers, removing labels, and capturing misdirected mail, we can
contribute more to the Postal Service's Transformation strategy. If you have any questions, please contact
Regina Wesson at (202) 268-4376.


Paul Vogel
Vice President, Network Operations Management




                                                         9
Mail Transport Equipment Service Center Network –                                                                                   NL-AR-06-012
 Highway Transportation Routes – Dallas




                                  APPENDIX E. TRIP ANALYSIS DETAIL
       ADDITIONAL TRIPS IDENTIFIED BY U.S. POSTAL SERVICE MANAGEMENT DURING AUDIT


                                                                                                                     Proposed         Total
        Highway                                                                                                        Weekly       Projected
        Contract                                                                                                    Round Trip       Savings
         Route                            Destination Point                                    Contract Term        Eliminations   on Contract
          751AK               Lufkin, TX, Processing and Distribution Center                                             1              $40,758.22
          751AK            Wichita Falls, TX, Processing and Distribution Facility                                       1               27,865.31
          751AK              Midland, TX, Processing and Distribution Facility                                           1               70,495.08
                       TOTAL ADDITIONAL TRIPS IDENTIFIED BY
                                  MANAGEMENT                                              09/23/2005 – 09/22/2007        3         $139,118.61




                                                                                     10
Mail Transport Equipment Service Center Network –                                                                               NL-AR-06-012
 Highway Transportation Routes – Dallas



                                      APPENDIX F. TRIP ANALYSIS DETAIL
                 PROPOSED TRIPS U.S. POSTAL SERVICE MANAGEMENT AGREED TO ELIMINATE


                                                                                                                  Proposed            Total
      Highway                                                                                                       Weekly          Projected
      Contract                                                                                                   Round-Trip          Savings
       Route                             Destination Point                                  Contract Term        Eliminations      on Contract
        751AK              North Texas, TX, Processing and Distribution Center                                        7                  $39,544.62
        751AK                          Dallas, TX, Bulk Mail Center                                                   14                 146,010.92
        751AK               Fort Worth, TX, Processing and Distribution Center                                        11                 204,862.26
        751AK               Shreveport, LA, Processing and Distribution Center                                        3                  123,522.35
        751AK             Oklahoma City, OK, Processing and Distribution Center                                       3                  119,779.25
        751AK                 Tulsa, OK, Processing and Distribution Center                                           2                  106,886.34
        751AK              East Texas, TX, Processing and Distribution Center                                         2                   46,996.72
        751AK                 Lufkin, TX, Processing and Distribution Center                                          1                   40,758.22
        751AK                 Waco, TX, Processing and Distribution Facility                                          3                   72,366.63
        751AK                Houston, TX, Processing and Distribution Center                                          1                   53,235.22
        751AK             North Houston, TX, Processing and Distribution Center                                       1                   51,571.62
        751AK                Amarillo, TX, Processing and Distribution Center                                         1                   75,277.93
        751AK                Lubbock, TX, Processing and Distribution Center                                          1                   71,742.78
        751AK                Abilene, TX, Processing and Distribution Facility                                        2                   71,950.73
        751AK                 Dallas, TX, Processing and Distribution Center                                          11                 113,357.12
                       TOTAL AGREED TO BY MANAGEMENT                                   09/23/2005 – 09/22/2007       63          $1,337,862.71




                                                                                  11
Mail Transport Equipment Service Center Network –         NL-AR-06-012
 Highway Transportation Routes – Dallas


                      APPENDIX G. MANAGEMENT’S COMMENTS




                                                    12
